      Department of Homeland Security




      Independent Review of the U.S. Immigration and
      Customs Enforcement’s Reporting of FY 2011 Drug
           Control Performance Summary Report




OIG-12-34                                    January 2012

                                                              Office of Inspector General

                                                              U.S. Department of Homeland Security
                                                              Washington, DC 20528




                                      JAN 30 2012 

                                               Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

This report presents the results of the review of the Performance Summary Report of the
U.S. Immigration and Customs Enforcement (ICE) for the year ended September 30,
2011, for the Office of National Drug Control Policy (ONDCP). We contracted with the
independent public accounting firm KPMG LLP to perform the review. ICE prepared the
Performance Summary Report and Management Assertions to comply with requirements
of the ONDCP Circular, Drug Control Accounting, dated May 1, 2007. Based on the
review, nothing came to KPMG’s attention that caused them to believe that the
Performance Summary Report for the year ended September 30, 2011, is not presented,
in all material respects, in conformity with the ONDCP’s Circular, or that management’s
assertions are not fairly stated, in all material respects, based on the criteria set forth in
the ONDCP’s Circular. KPMG LLP is responsible for the attached independent
accountants’ report dated January 20, 2012, and the conclusions expressed in it. We do
not express an opinion on the Performance Summary Report and management’s
assertions.

We trust this report will result in more effective, efficient, and economical operations.
We express our appreciation to all of those who contributed to the preparation of this
report.




                                               Anne L. Richards
                                               Assistant Inspector General for Audits
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                                      Independent Accountants’ Report


Acting Inspector General
U.S. Department of Homeland Security:

We have reviewed the accompanying Performance Summary Report of the U.S. Department of Homeland
Security’s (DHS) Immigration and Customs Enforcement (ICE) for the year ended September 30, 2011.
We have also reviewed the accompanying management’s assertions for the year ended September 30,
2011. ICE’s management is responsible for the Performance Summary Report and the assertions.

Our review was conducted in accordance with attestation standards established by the American Institute
of Certified Public Accountants, and applicable standards contained in Government Auditing Standards,
issued by the Comptroller General of the United States. A review is substantially less in scope than an
examination, the objective of which is the expression of an opinion on the Performance Summary Report
and management’s assertions. Accordingly, we do not express such an opinion.

Management of ICE prepared the Performance Summary Report and management’s assertions to comply
with the requirements of the Office of National Drug Control Policy (ONDCP) Circular, Drug Control
Accounting, dated May 1, 2007 (the Circular).

Based on our review, nothing came to our attention that caused us to believe that (1) the Performance
Summary Report for the year ended September 30, 2011, is not presented, in all material respects, in
conformity with the Circular, or that (2) management’s assertions referred to above are not fairly stated, in
all material respects, based on the criteria set forth in the Circular.

This report is intended solely for the information and use of management of DHS and ICE, the DHS
Inspector General, the ONDCP, and the U.S. Congress, and is not intended to be and should not be used by
anyone other than these specified parties.




January 20, 2012




                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
                                                                        Ojf/a. ojChitjFi1lQllCiai Ojf/Ctr

                                                                        u.s. IHpntmtDl of Uomt:land S«lIrity
                                                                        500 12- SItCet, SW
                                                                        Washington, D.C. 20B6


                                                                       u.s. Immigration
                                                                       and Customs
                                                                       Enforcement
January 19th , 2012

Mr. John Shiffer
Department of Homeland Security
Director of Financial Management
Office of the Inspector general




Dear Mr. Shiffer,

In Accordance with the Office of National Drug Control Policy circular, Drug Control Accounting, dated
May 1, 2007, enclosed is Immigration and Customs Enforcement's report of FY 20 II drug performance
metrics and targets.

If you require further assistance on this information, please contact Joseph Grosoclonia at (202)-732-6244.

                                                 Sincerely,


                                                'jlJlo.
                                                   '   M
                                                              ').J flltCJ.dJ-'lc
                                                            ; ,
                                                 L lsa acecevlc
                                                 Director, Office of Budget and Program Performance
                                                 U.S . Immigration and Customs Enforcement




                                                                       www.ice.gov
                           U.S. Department of Homeland Security
                         U.S. Immigration and Customs Enforcement

           Performance Summary Report of Drug Control Funds during FY 2011
                                International Affairs

Metric 1: Percentage of overseas investigative hours spent on drug related cases.

             FY 2007     FY 2008     FY 2009     FY 2010     FY 2011     FY 2011     FY 2012
              Actual      Actual      Actual      Actual      Target      Actual      Target
                NA         4.4%        3.8%        4.9%        4.5%        6.3%        5.0%

(1) Description
The outcome metric for International Affairs as a whole is the percentage of overseas
investigative hours spent on drug related cases. This metric evaluates the percentage of ICE’s
overall overseas investigations that go towards counter-narcotics enforcement.

International Affairs supports U.S. drug control policy, specifically Office of National Drug
Control Policy (ONDCP) initiatives, by supporting the overall ICE mandate to detect, disrupt,
and dismantle smuggling organizations. Increased hours spent on drug related cases directly
leads to increased detection, disruption and dismantlement of drug smuggling organizations.
International Affairs’ investigative resources are directed at organizations smuggling contraband
(including narcotics) into the United States. International Affairs partners with domestic ICE
components and with U.S. law enforcement agencies overseas to leverage overseas resources
mitigating global narcotics threats to the U.S. This includes utilizing investigative and
intelligence techniques to support domestic cases and interagency cross-border initiatives. The
metric was not established until FY 2008, thus there are no data for FY 2007.

This counter-narcotics performance metric is evaluated on a consistent basis for International
Affairs. It is, in some cases, put into Senior Executive Service (SES) performance plans, and is
also tracked at a high managerial level by way of processes such as Homeland Security
Investigations (HSI) Trak, ICE Trak, programmatic monitoring, financial monitoring and
quarterly expenditure reports.

(2) FY 2011 actual performance results

In FY 2011, 6.3% of overseas investigative case hours were spent on drug related cases,
exceeding the target of 4.5%. The percentage of overseas investigative hours spent on drug
related cases is derived by dividing the drug related case hours by the total investigative case
hours of overseas agents.

(3) The performance target for FY 2012

The performance target for FY 2012 is 5.0%. The 5.0% target is based upon an average of the
three prior years’ performance results. In addition, the Domestic Investigations program
performs quality control checks in order to ensure results from the Treasury Enforcement
                                              -2­

Communication System (TECS) system are reliable. In establishing this metric, International
Affairs plans to have sufficient resources to support the same level of effort on drug related
investigations.

(4) Quality of Performance Data

The database used to obtain International Affairs performance data is the TECS. International
Affairs relies on the TECS system to ensure the performance data is accurate, complete, and
unbiased in presentation and substance. Domestic Investigations conducts quality control
verification on all data received through the TECS to ensure the performance data are accurate,
complete, and unbiased in presentation and substance.
                                                -3­


           Performance Summary Report of Drug Control Funds during FY 2011
                                        Intelligence

Metric 1: Number of counter-narcotics intelligence requests satisfied.

             FY 2007     FY 2008     FY 2009     FY 2010     FY 2011     FY 2011     FY 2012
              Actual      Actual      Actual      Actual      Target      Actual      Target
                NA          82         1,969        338         796        2,721       3,500

(1) Description

Intelligence supports its customers by satisfying their intelligence requirements – providing
products and services that inform customers and close existing “intelligence gaps.” Customer
requirements are formally documented and captured within the Intelligence Information
Management System (IIMS). The IIMS was implemented in FY 2010 to replace the Intelligence
Requirement Intake System (IRIS). Customers elaborate their requirements in the IIMS which
are then analyzed and assigned to the appropriate analytic components. Levied requirements are
then either “satisfied” by Intelligence, or not. In the latter case, an intelligence gap remains.
Satisfaction of customer requirements represents the “outcome” of Intelligence’s production in
that satisfying customer requirements closes the gap in their information needs and allows
customers to make informed decisions about executing law enforcement actions. The metric was
not established until FY 2008, thus there are no data for FY 2007.

This counter-narcotics performance metric is evaluated on a consistent basis for Intelligence, and
is in some cases put into SES performance plans, but is also tracked at a high managerial level
via such processes as HSI Trak, ICE Trak, programmatic monitoring, financial monitoring and
quarterly expenditure reports.

(2) FY 2011 actual performance results

In FY 2011, Intelligence accounted for 2,721 satisfied requests, as reported in the IIMS. The FY
2011 target of 796 satisfied requests was met. In FY 2010, Intelligence experienced data
migration issues from a previous system which led to difficulty in setting an accurate FY 2011
target. The migration issues led to too many requests being counted in the system.

(3) Performance Target for FY 2012

The performance target for FY 2012 is 3,500 counter-intelligence requests satisfied based on
extrapolating year to date results to a full twelve months. ICE uses a projection of year to date
results for its performance metric to exclude data migration issues from FY 2010 from its
projections. Intelligence is evaluating the possibility of re-baselining the “satisfied intelligence
requests” performance metric in FY 2013, due to planned changes to the criteria for what
qualifies as a true Request for Information (RFI). In FY 2011, all entries to the Intelligence IIMS
were categorized as RFI. An analysis of the requests revealed that many of these requests were
for basic level, relatively easy-to-satisfy “case support” information. Under the new
methodology, Intelligence plans to only designate as true RFI’s those requests that will require
                                              -4­

intensive analytical support to satisfy, and result in a formal intelligence product, such as a
Homeland Security Intelligence Report. As a result of these planned changes, Intelligence would
expect the number of satisfied counter-narcotics intelligence requests for FY 2013 to be
significantly lower than FY 2011 actual results and FY 2012 target.

(4) Quality of Performance Data

The database used to validate Intelligence’s performance data is the IIMS. Intelligence conducts
quality control verification on the IIMS data to ensure the performance data are accurate,
complete, and unbiased in presentation and substance. The IIMS was deployed in FY 2010, and
data existing in the IRIS were migrated. A portion of the performance data relevant to total FY
2010 RFIs was not available after the data migration was completed, but for FY 2011, all RFIs
were captured in the IIMS.
                                               -5­


           Performance Summary Report of Drug Control Funds during FY 2011
                                 Domestic Investigations

Metric 1: Percent of closed investigations which have an enforcement consequence (arrest,
indictment, conviction, seizure, fine or penalty)

             FY 2007     FY 2008     FY 2009     FY 2010     FY 2011     FY 2011     FY 2012
              Actual      Actual      Actual      Actual      Target      Actual      Target
              35.8%       46.3%       47.7%       48.8%       49.9%       52.0%        49.5%


(1) Description

The outcome metric for Domestic Investigations as a whole is the percentage of closed
investigations that have an enforcement consequence defined as arrest, indictment, conviction,
seizure, or penalty. This metric evaluates the percent of closed cases worked by HSI-Domestic
in a selected fiscal year that produced an enforcement consequence (e.g., arrest, indictment,
conviction, seizure, fine and/or penalty).

More effective immigration and trade enforcement will contribute to enhanced homeland
security, as well as to greater deterrence. One method for measuring this effectiveness is to
determine the extent to which criminal investigations are completed successfully, i.e., closed
with an enforcement consequence. However, although many criminal cases arise that are worth
pursuing, the potential of an investigation is not known at its inception; therefore, it is to be
expected that many cases will be closed each year without an enforcement consequence when it
is determined that investigation is no longer viable. Successful investigations also expose and
remove, or contribute to the elimination of, vulnerabilities in various aspects of trade and
immigration, i.e., the ways in which criminals manage to evade safeguards established to prevent
their illegal activity, and areas in which such safeguards are lax or do not exist.

This counter-narcotics performance metric is evaluated on a consistent basis for Domestic
Investigations. It is, in some cases, put into SES performance plans, and is also tracked at a high
managerial level by way of processes such as HSI Trak, ICE Trak, programmatic monitoring,
financial monitoring and quarterly expenditure reports.

(2) FY 2011 actual performance results

Final performance results for metric one in FY 2011 was 52.0% exceeding the FY 2011 target of
49.9%

Domestic Investigations is in the process of establishing new performance metrics in FY 2012 to
better indicate the success of counter-narcotics enforcement. The new performance metric will
be “the percentage of high impact or high risk drug investigations that result in a disruption or
dismantlement.” Cases are deemed high impact or high risk based on a pre-defined set of criteria,
and are reviewed by a significant case panel on a regular basis. A disruption is defined as actions
taken in furtherance of the investigation that impede the normal and effective operation of the
                                                -6­

target organization or targeted criminal activity. A dismantlement is defined as destroying the
target organization’s leadership, network, and financial base to the point that the organization is
incapable of reconstituting itself.

This new performance metric will replace Domestic Investigations’ current counter-narcotics
performance metrics in FY 2013.


(3) Performance target for FY 2012

The performance target for FY 2012 is 49.5%. The target is based on an average of the three
previous years’ performance results. In addition, the Domestic Investigations program performs
quality control checks in order to ensure results from the TECS system are reliable. In
establishing this metric, Domestic Investigations plans to have sufficient resources to support the
same level of effort on drug related investigations.

(4) Quality of Performance Data

The database used to validate Domestic Investigations performance data is TECS. Domestic
Investigations relies on the TECS system to ensure the performance data are accurate, complete,
and unbiased in presentation and substance. Domestic Investigations conducts quality control
verification on all data received through TECS to ensure the performance data are accurate,
complete, and unbiased in presentation and substance.
                                                -7­

Metric 2: Percent of closed drug smuggling investigations which have an enforcement
consequence (arrest, indictment, conviction, seizure, fine or penalty).

             FY 2007     FY 2008     FY 2009      FY 2010     FY 2011     FY 2011     FY 2012
              Actual      Actual      Actual       Actual      Target      Actual      Target
                NA         74.7%       74.3%       72.7%       78.0%       72.0%        73.0%


(1) Description

Domestic Investigations performance metrics tie drug control efforts to impacts on the systems
by which drugs and drug money are moved and stored. This metric evaluates the percent of
closed drug smuggling cases worked by Domestic Investigations in a selected fiscal year that
produced an enforcement consequence (e.g., arrest, indictment, conviction, seizure, fine and/or
penalty). This metric is a subset of the closed investigations discussed in Metric One.

More effective immigration and trade enforcement will contribute to enhanced homeland
security, as well as to greater deterrence. One method for measuring this effectiveness is to
determine the extent to which drug smuggling investigations are completed successfully, i.e.,
closed with an enforcement consequence. However, although many drug smuggling cases arise
that are worth pursuing, the potential of an investigation is not known at its inception; therefore,
it is to be expected that many cases will be closed each year without an enforcement
consequence when it is determined that the investigation is no longer viable. Successful
investigations also expose and remove, or contribute to the elimination of, vulnerabilities in
various aspects of trade and immigration, i.e., the ways in which criminals manage to evade
safeguards that prevent their illegal activity, and areas in which such safeguards are lax. The
metric was not established until FY 2008, thus there are no data for FY 2007.

This counter-narcotics performance metric is evaluated on a consistent basis for Domestic
Investigations. It is, in some cases, put into SES performance plans, and is also tracked at a high
managerial level by way of processes such as HSI Trak, ICE Trak, programmatic monitoring,
financial monitoring and quarterly expenditure reports.

(2) FY 2011 actual performance results

In FY 2011, 72.0% of the drug smuggling cases closed resulted in an enforcement consequence.
Thus, the FY 2011 target of 78.0% was not met. Investigations are not closed until the criminal
judicial proceedings take their turn. As judicial proceedings are out of the control of ICE, their
results are highly variable, and Domestic Investigations continually reevaluates the allocation of
investigative hours to the highest risk priority investigations.

The baseline for this metric was established in FY 2008 and is tracked by quarter. The FY 2011
actual results were calculated by averaging the quarterly percentages for closed drug smuggling
investigative cases which have an enforcement consequence (arrest, indictment, conviction,
seizure, fine, or penalty).
                                               -8­

Domestic Investigations is in the process of establishing new performance metrics in FY 2012 to
better indicate the success of counter-narcotics enforcement. The new performance metric will
be “the percentage of high impact or high risk drug investigations that result in a disruption or
dismantlement.” Cases are deemed high impact or high risk based on a pre-defined set of criteria,
and are reviewed by a significant case panel on a regular basis. A disruption is defined as actions
taken in furtherance of the investigation that impede the normal and effective operation of the
target organization or targeted criminal activity. A dismantlement is defined as destroying the
target organization’s leadership, network, and financial base to the point that the organization is
incapable of reconstituting itself.

This new performance metric will replace Domestic Investigations’ current counter-narcotics
performance metrics in FY 2013.

(3) Performance target for FY 2012

The performance target for FY 2012 is 73.0%. The target is based upon an average of three prior
years’ performance results. Domestic Investigations has taken proactive steps, including the use
of the Significant Case Report Module in the TECS, to enhance its management practices to
better allocate investigative resources.

(4) Quality of Performance Data

The database used to validate Domestic Investigations performance data is the TECS. Domestic
Investigations relies on the TECS system to ensure the performance data are accurate, complete,
and unbiased in presentation and substance. Domestic Investigations conducts quality control
verification on all data received through the TECS to ensure the performance data are accurate,
complete, and unbiased in presentation and substance.
                                            -9­


                            ICE Management Assertion Report

Management Assertions

   1. Performance reporting system is appropriate and applied.
      ICE has systems to capture performance information accurately and those systems were
      properly applied to generate the performance data.

   2. Explanations for not meeting performance targets are reasonable.
      In FY 2011, ICE provided reasonable explanations for established performance targets
      that were not met.

   3. Methodology to establish performance targets is reasonable and applied.
      The methodology described above to establish performance targets for FY 2012 is
      reasonable given past performance and available resources.

   4. Adequate performance metrics exist for all significant drug control activities.
      ICE has established more than one acceptable performance metric for its Drug Control
      Decision Unit—Salaries and Expense.
                          Exhibit 1: Additional Drug Enforcement Statistics
Domestic Investigations keeps track of additional statistics to monitor their drug enforcement efforts.
Domestic Investigations does not set targets for seizures and only provides year end data. Note “high
impact” as discussed in statistics 3 through 6 is defined as the weight limit for a seizure that would
constitute a federal drug identification number from the El Paso Intelligence Center.

Statistic 1: Dollar value of real or other property seizures derived from/and/or used in drug
operations.

              FY 2009       FY 2010       FY 2011
               Actual        Actual        Actual
              $94.2 M       $47.2 M       $53.7 M

Statistic 2: Dollar value of seized currency and monetary instruments from drug operations.

              FY 2009       FY 2010       FY 2011
               Actual        Actual        Actual
             $155.3 M       $115.2 M      $232.4 M

Statistic 3: Percentage of total cocaine seizures considered high impact.

              FY 2009       FY 2010       FY 2011
               Actual        Actual        Actual
                62%           60%           54%

Statistic 4: Percentage of heroin seizures considered high impact.

              FY 2009       FY 2010       FY 2011
               Actual        Actual        Actual
                67%           71%           68%

Statistic 5: Percentage of marijuana seizures considered high impact.

              FY 2009       FY 2010       FY 2011
               Actual        Actual        Actual
                57%           57%           48%

Statistic 6: Percentage of methamphetamine seizures considered high impact.

              FY 2009       FY 2010       FY 2011
               Actual        Actual        Actual
                52%           56%           65%
Report Distribution




                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Chief Financial Officer
                      Chief Information Officer

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Office of National Drug and Control Policy

                      Associate Director for Planning and Budget

                      Immigration and Customs Enforcement

                      Assistant Secretary
                      Chief Financial Officer
                      Chief Information Officer

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
